FILED
FEB 2 2 2021

No. 20- 4115

OFFICE OF THE CL
SUPREME 0 T U

the
'upreme Court of the Einiteb i§tateo

ANTHONY VETRI,
Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
REPLY BRIEF FOR PETITIONER

ANTHONY VETRI
PETITIONER PRO SE
REG# 69695-066
USP COLEMAN 1
P.O. Box 1033
COLEMAN, FL 33521

February 19, 2021

RECEWED
FEB 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

ARGUMENT
This petition presents an important
question concerning the nation's Fourth
Amendment law applied to digital data,
on which there is a growing conflict
among the state and federal courts of last.
resort; Whether the Fourth Amendment
compels more stringent policy
considerations for warrants that involves
the seizure of digital data in cellphones
and other devices capable of storing
digital content.
In fact, while the government has
elected to waive its response, petitioner
has submitted this reply brief to inform
this Court since the instant petition has
been placed in this Court's docket, the
Supreme Court of Pennsylvania has
granted a petition for allowance of appeal
on the current issues presented in the
instant petition in Commonwealth v.
Green," 2021 Pa., WL 236043, LEXIS 308
(Jan 25, 2021).
The Pennsylvania Court of last resort
will address whether a warrant which
allowed the state authorities to search all
digital contents of a person computers
and cell phones with no apparent
restrictions was overbroad, insufficiently
particular and lacking in probable cause.
It is highly probable that it will set forth
a test to regulate how warrants for
digital data must be tailored to meet

constitutional requirements. Like many
courts around the nation, guidance from
this Court will be critical in crafting such
test.
The government cannot dispute the
need for this Court to set forth a specific
test to determine whether a warrant
meet Fourth Amendment requirements.
It also cannot dispute the instant petition
presents an appropriate vehicle for
resolving the question, as there are no
apparent obstacles to the Court's review
and the case directly implicates the
critical split in our nation courts.
Green illustrates that the question
presented in the instant case is in fact a
significant one and this Court guidance is
needed to ensure Pennsylvania courts, as
well as others around the Country, are
properly uniformed to comport with this
Court's precedent on warrants involving
digital data. Accordingly, the issues
presented in the instant case is ripe for
review from this Court.

CONCLUSION
For the foregoing reasons, as well as
those contained in the Petition for
Certiorari, the petition should be
granted.

Respectfully Submitted,
Anthony Vetri, Pro Se
REG# 69695-066
USP COLEMAN 1
P.O. BOX 1033 COLEMAN FL 33521

February 19, 2021

